Nos. 20-138
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED STATES, ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE PETITIONERS TO HOLD THE BRIEFING SCHEDULE IN
ABEYANCE AND TO REMOVE THE CASE FROM THE FEBRUARY 2021
ARGUMENT CALENDAR, via email and first-class mail, postage prepaid, this 1st day of
February 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0138
BIDEN, JOSEPH R. , JR., PRESIDENT OF THE
UNITED STATES, ET AL.,
SIERRA CLUB, ET AL.

DOOUGLAS W. ALEXANDER
ALEXANDER DUBOSE & JEFFERSON LLP
515 CONGRESS AVENUE
SUITE
AUSTN, TX 78701-3562
512-482-9300
DALEXANDER@ADJTLAW.COM
BENJAMIN DANIEL BATTLES
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER , VT 05609-1001
JACOB CAMPION
JULIANNA F. PASSE
445 MINNESOTA STREET
ST. PAUL, MN 55101
651-757-1459
JACOB.CAMPION@AG.STATE.MN.US
MARGARET Q. CHAPPLE
DEPUTY ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL CONNECTICUT
55 ELM STREET
PO BOX 120
HARTFORD , CT 06106

SAMUEL F. DAUGHETY
TOHONO O'ODHAM NATION
1900 K STREET, NW
WASHINGTON, DC 20006
202-408-6427
SAMUEL.DAUGHETY@DENTONS.COM
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
200 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202
913-449-5049
JDUNLAP@OAF.STATE.MD.US
JEREMY M. FEIGENBAUM
OFFICE OF THE NJ ATTORNEY GENERAL
25 MARKET ST.
FIRST FLOOR
TRENTON, NJ 08625-0080
609-376-2690
JEREMY.FEIGENBAUM@NJOAG.GOV
AIMEE ATHENA FEINBERG
CALIFORNIA DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO , CA 95514
916-210-6003
AIMEE.FEINBERG@DOJ.CA.GOV
JOHN A. FREEDMAN
ARNOLD & PORTER, LLP
601 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20001
202-942-5000
JOHN.FREEDMAN@ARNOLDPORTER.COM
202-942-5999(Fax)

BRIANNE JENNA GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
SUSAN P. HERMAN
DEPUTY ATTORNEY GENERAL
STATE OF MAINE
6 STATE HOUSE STATION
AUGUSTA, GA 04333
207-626-8814
SUSAN.HERMAN@MAINE.GOV
RICHARD P. HUTCHISON
LANDMARK LEGAL FOUNDATION
THE RONALD REGAN LEGAL CENTER
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
PETE.HUTCH@LANDMARKLEGAL.ORG
GABE JOHNSON-GARP
WISCONSIN DEPARTMENT O JUSTICE
17 WEST MAIN STREET
MADISON, WI 53707
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM

MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219
804-786-7704
MKALLEN@OAG.STATE.VA.US
JOSHUA A. KLEIN
CALIFORNIA DEPT. OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612-1413
JOSHUA.KLEIN@DOJ.CA.GOV
DROR LADIN
ACLU FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
DLADIN@ACLU.ORG
DAVID JAY LYONS
OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
820 N. FRENCH STREET
WILMINGTON, DE 19801
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
TMAESTAS@NMAG.GOV
JONA J. MAUKONEN
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301

DOUGLAS R. MCKUSICK
THE RUTHERFORD INSTITUTE
PO BOX 7482
CHARLOTTESVILLE, VA 22906-7482
434-978-3888
DOUGLASM@RUTHERFORD.ORG
ROBERT TADAO NAKATSUJI
OFFICE OF THE HAWAII ATTORNEY
GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
MICHAEL J. O'NEILL
LANDMARK LEGAL FOUNDATION
19415 DEERFIELD AVE.
SUITE 312
LEESBURG, VA 20176
703-554-6105
MIKE@LANDMARKLEGAL.ORG
ERIC R. OLSON
OFFICE OF THE ATTORNEY GENERAL
1300 BROADWAY
10TH FLOOR
DENVER, CA 80203
720-508-6548
ERIC.OLSON@COAG.GOV
BERNARD ERIC RESTUCCIA
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
670 LAW BUILDING
525 W. OTTAWA
LANSING, MI 48913

CALEB RUSH
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
JASON C. RYLANDER
DEFENDERS OF WILDLIFE
1411 K STREET, NW
SUITE 1300
WASHINGTON, DC 20005
202-849-8401
BSEGEE@BIOLOGICALDIVERSITY.ORG
JAY ALAN SEKULOW
AMERICAN CENTER FOR LAW AND JUSTICE
201 MARYLAND AVE., NE
WASHINGTON, DC 20002
202-546-8890
SEKULOW@ACLJ.ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
LEE I. SHERMAN
STATE OF CALIFORNIA DEPARTMENT OF
JUSTICE
1300 I STREET
SACRAMENTO, CA 95814
916-210-6003
AIMEE.FEINBERG@DOJ.CA.GOV

SAM SPIEGELMAN
CATO INSTITUTE
1000 MASS. AVE. NW
WASHINGTON, DC 20001
202-789-5242
SSPIEGELMAN@CATO.ORG
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
HSTERN@AG.NV.GOV
JUSTIN JAMES SULLIVAN
SPECIAL ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
ABIGAIL TAYLOR
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108
MAXWELL WEISS
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICA
NEW YORK, NY 10036
JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

STEVEN C. WU
NEW YORK STATE OFFICE OF THE
ATTORNEY GENERAL
28 LIBERTY STREET
23RD FLOOR
NEW YORK, NY 10005
JAMES FRED ZAHRADKA, III
DEPUTY ATTORNEY GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612
JAMES.ZAHRADKA@DOJ.CA.GOV
STEVEN A. ZALESIN
PATTERSON BELKNAP WEBB &
TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK , NY 10036
212-336-2000
SAZALESIN@PBWT.COM

